W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7774

Kevin Johnson

Texas
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Melinda Fletcher

Date:

4/28/21

Digitally signed by Melinda Fletcher
Date: 2021.04.28 13:22:06 -05'00'

(Type or print) Name Melinda Fletcher
Mr.

Ms.

Firm

Special Prosecution Unit

Address

P O Box 1744

City & State

Amarillo

Phone

8064338720

Mrs.

Miss

Zip 79105
Email

mfletcher@sputexas.org

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Kevin Johnson # 6402792, pro se Petitioner
% Texas Civil Commitment Center, 2600 Sunset Ave., Littlefield, Texas 79339

